OIG Investigative Reports, Wife of Former Congressman Agrees to Forfeit Proceeds from Home Sale and Pay IRS More Than $1.6 Million in Taxes, Penalties and Interest.
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
PRESS RELEASE:
Southern District of California, October 6, 2006
U.S. Department of Justice
Office of the United States Attorney
Southern District of California
United States Attorney
Carol C. Lam
For Further Information, Contact:
Assistant U.S. Attorneys Sanjay Bhandari (619) 557-7042,
Jason A. Forge (619) 557-7463,
and Phillip L.B. Halpern (619) 557-5165
Wife of Former Congressman Agrees to Forfeit Proceeds From Home Sale and Pay IRS More Than $1.6 Million in Taxes, Penalties and Interest
United States Attorney Carol C. Lam announced today that United States District
Court Judge Dana M. Sabraw issued an Order resolving the forfeiture action filed
against the Rancho Santa Fe home of then-Congressman Randall Cunningham and
his wife Nancy. Pursuant to this order, Mrs. Cunningham will forfeit her entire
interest in the proceeds from the sale of the Cunninghams' Rancho Santa Fe home
— including $760,000 in equity predating Cunningham's unlawful activities. In
addition, Mrs. Cunningham also signed a closing agreement with the Internal
Revenue Service (IRS) in which she admitted committing civil tax violations
and agreed to pay more than $1 million in taxes and more than $600,000 in penalties.
Rather than return to Mrs. Cunningham the $760,000 in equity not derived from
criminal activity, the government will apply these funds directly to her outstanding
tax liability.
The United States filed this civil forfeiture action during the summer of 2005
in order to protect the public's interest in the Cunningham home, which had
been financed with more than $1 million in bribe proceeds. On March 3, 2006,
former Congressman Cunningham was sentenced to serve 100 months in custody based
on his conspiring to commit Bribery, Honest Services Fraud and Tax Evasion.
While the forfeiture case was pending, the United States Attorney's Office consented
to the sale of the Rancho Santa Fe home, which resulted in approximately $2
million in proceeds that were placed in escrow pending the resolution of forfeiture
case.
As part of his plea agreement, Mr. Cunningham forfeited his entire interest
in these proceeds. Mr. Cunningham also agreed to pay to the Internal Revenue
Service (IRS) more than $1.6 million in taxes, penalties, and interest.
United States Attorney Lam stated, "Today's order returns nearly $2 million
to the public fisc, and ensures that the Cunninghams in no way profit from the
sordid conduct that occurred in this case."
FBI Special Agent-in-Charge Daniel R. Dzwilewski commented, "The government
will continue to ensure that assets obtained as a result of criminal activity
will be repatriated to the American public."
"Failure to report income from any source is a serious matter," said Kenneth
Hines, Special Agent in Charge, IRS Criminal Investigation. "Individuals who
disregard the U.S. tax code will be aggressively pursued."
Case Number: 05cv1450-DMS(AJB)
AGENCIES
Federal Bureau of Investigation
Internal Revenue Service - Criminal Investigation Division Defense
Criminal Investigative Service
Top
Printable view
Share this page
Last Modified: 12/18/2006
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov